   October 12, 2004




Information Technology
Reporting of DoD Capital
Investments for Technology in
Support of the FY 2005 Budget
Submission
(D-2005-002)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
Additional Copies
To obtain additional copies of this report, visit the Web site of the Inspector
General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
contact the Secondary Reports Distribution Unit, Audit Followup and Technical
Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact Audit Followup and
Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
Ideas and requests can also be mailed to:

                 ODIG-AUD (ATTN: AFTS Audit Suggestions)
                 Inspector General of the Department of Defense
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704
                           INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                       October 12,2004
MEMORANDUM FOR ASSISTANT SECRETARY DEFENSE (NETWORKS AND
               INFORMATION INTEGRATION) I DOD CHIEF
               INFORMATION OFFICER
SUBJECT: Reporting of DoD Capital Investments for Technology in Support of the
         FY 2005 Budget Submission (Report No. D-2005-002)

        We provided a draft of this report on September 28,2004. No written response to
this report was required and none was received. Therefore, we are publishing this report
in final form.
        We appreciate the courtesies extended to the audit staff. For additional
information on this report, please contact Ms. Kathryn M. Truex at (703) 604 8966 (DSN
664-8966) or Mr. Robert L. Shaffer at (703) 604-9043 @SN 664-9043). See Appendix B
for the report distribution. The team members are listed inside the back cover.



                                            M&L. ug&e
                                   Assistant Inspector General for
                               Acquisition and Technology Management
         Office of the Inspector General of the Department of Defense
Report No. D-2005-002                                                   October 12, 2004
 (Project No. D2004AL-0148)

           Reporting of DoD Capital Investments for Technology
              in Support of the FY 2005 Budget Submission

                                Executive Summary


Who Should Read This Report and Why? DoD managers preparing and certifying
capital investment justifications for information technology should read this report to
improve the quality of data being submitted by the Assistant Secretary of Defense
(Networks and Information Integration) to the Office of Management and Budget and
Congress.

Background. Information technology is a President’s Management Agenda priority for
expanding electronic government. In addition, Congress has challenged the quality of
DoD information technology management because information technology documents
and associated budget data that DoD provided were inaccurate, misleading, or
incomplete. In FY 2005, DoD submitted a budget request of $28.7 billion for
information technology.

Results. DoD Components did not adequately report information technology
investments to the Office of Management and Budget in support of the DoD Budget
Request for FY 2005 because Component Chief Information Officers and Chief Financial
Officers did not always include required information in submitted reports. Specifically,
76 of 174 (44 percent) Capital Investment Reports submitted to the Office of
Management and Budget in standard formats did not completely respond to one or more
required data elements addressing security funding, certification and accreditation, and
training and security plans. As a result, the quality of DoD security information reported
to the Office of Management and Budget had limited value and did not demonstrate, in
accordance with Office of Management and Budget and DoD guidance, that DoD was
effectively managing its proposed information technology investment for FY 2005.

In response to prior audit reports by the Government Accountability Office and the
Office of the Inspector General of the Department of Defense, the Assistant Secretary of
Defense (Networks and Information Integration) / DoD Chief Information Officer either
concurred or partially concurred with the recommendations and took actions that should
improve the quality of Capital Investment Reports submitted to the Office of
Management and Budget for FY 2006. Therefore, we made no recommendations.
Table of Contents

Executive Summary                                      i

Background                                             1

Objectives                                             2

Finding
     Completeness of DoD Capital Investment Reports    3

Appendixes
     A. Scope and Methodology                         10
         Prior Coverage                               10
     B. Report Distribution                           11
Background
    DoD Components use information technology in a wide variety of mission
    functions including finance, personnel management, computing and
    communication infrastructure, logistics, intelligence, and command and control.
    Information technology consists of any equipment or interconnected system or
    subsystem of equipment that is used in the automatic acquisition, storage,
    manipulation, management, movement, control, display, switching, interchange,
    transmission, or reception of data or information. The President’s Management
    Agenda for expanding electronic government identified effective planning for
    information technology investments as a priority. Improving information
    technology security is one of the Office of Management and Budget’s highest
    priorities in information technology management. In addition, Congress has
    challenged the quality of DoD information technology management because
    information technology documents and associated budget data that DoD provided
    were inaccurate, misleading, or incomplete. The Assistant Secretary of Defense
    (Networks and Information Integration), as the Chief Information Officer, is the
    principal staff assistant to the Secretary of Defense for DoD information
    technology.

    Public Law 107-347, Title III, “Federal Information Security Management Act of
    2002,” December 17, 2002, requires agencies to address the adequacy and
    effectiveness of information security policies and practices in plans and reports
    relating to annual agency budgets.
    Public Law 104-106, “National Defense Authorization Act for Fiscal Year 1996,”
    Division E, Information Technology Management Reform, February 10, 1996,
    commonly called the “Clinger-Cohen Act,” requires effective and efficient capital
    planning processes for selecting, managing, and evaluating the results of all major
    investments in information technology. The Act requires that executive agencies:

           •   Establish goals for improving the efficiency and effectiveness of
               agency operations through the effective use of information technology,

           •   Prepare an annual report, to be included in the executive agency’s
               budget submission to Congress, on the progress in achieving the goals,

           •   Prescribe performance measurements for information technology and
               measure how well information technology supports agency programs,

           •   Measure quantitatively agency process performance for cost, speed,
               productivity, and quality against comparable processes and
               organizations in the private and public sectors where they exist,

           •   Analyze the missions of the executive agency and, based on the
               analysis, revise the executive agency’s mission-related processes and
               administrative processes as appropriate before making significant
               investments in information technology, and

           •   Ensure that information security policies, procedures, and practices of
               the executive agency are adequate.




                                         1
    DoD uses the Information Technology Management Application database to plan,
    coordinate, and disseminate the DoD information technology budget that the
    Office of Management and Budget and Congress require. The information
    technology budget for FY 2005 totaled $28.7 billion and consisted of
    1,176 different initiatives. DoD classified 172 of the initiatives as major
    investments, which accounted for $13.1 billion (46 percent of the information
    technology budget). The remaining 1,004 initiatives were minor investments and
    totaled $15.6 billion.
    Components must submit an Exhibit 300, “Capital Investment Report,” for all
    major information technology investments. Major information technology
    investments:

           •   require special management attention because of their importance to
               an agency’s mission;

           •   were included in the FY 2004 submission and are ongoing;

           •   are for financial management and more than $500,000;

           •   are directly tied to the top two layers of the Federal Enterprise
               Architecture;

           •   have significant program or policy implications;

           •   have high executive visibility;

           •   are defined as major investments by the agency’s capital planning and
               investment control process.

    The Capital Investment Report is used by DoD management and the Office of
    Management and Budget to show that the Component has employed the
    disciplines of good project management, presented a strong business case for the
    investment, and defined the proposed costs, schedule, and performance goals for
    the investment if funding approval is obtained. When submitted, the Capital
    Investment Report should be complete and accurate and provide all the
    information that the Office of Management and Budget requires. In September
    2003, DoD submitted 174 Capital Investment Reports for the FY 2005 budget
    request to the Office of Management and Budget.


Objectives
    The overall audit objective was to verify and validate whether the Services and
    DoD Components are adequately reporting information technology investments to
    the Office of Management and Budget. Specifically, the audit determined
    whether DoD Capital Investment Reports that were submitted in September 2003
    for the Office of Management and Budget FY2005 reporting requirements
    demonstrated that DoD is managing its information technology investments in
    accordance with Office of Management and Budget and DoD guidance.



                                         2
            Completeness of DoD Capital Investment
            Reports
            DoD Components did not adequately report information technology
            investments to the Office of Management and Budget in support of the
            DoD Budget Request for FY 2005 because Component Chief Information
            Officers and Chief Financial Officers did not always include the required
            information in the reports that they submitted. Specifically, 76 of the
            174 (44 percent) Capital Investment Reports submitted to the Office of
            Management and Budget in September 2003 did not completely respond
            to one or more required data elements in the Security and Privacy section.
            As a result, the quality of DoD information reported on security to the
            Office of Management and Budget had limited value and did not
            demonstrate, in accordance with Office of Management and Budget and
            DoD guidance, that DoD was effectively managing its proposed
            $28.7 billion information technology investment for FY 2005.


Criteria
     Office of Management and Budget Circular A-11. Circular A-11,
     “Preparation, Submission, and Execution of the Budget,” Part 7, Section 300,
     “Planning, Budgeting, Acquisition, and Management of Capital Assets,” July
     2003, implements the Clinger-Cohen Act and establishes policy and procedures
     for planning, budgeting, acquiring, and managing Federal capital assets.
     Agencies are required to demonstrate to the Office of Management and Budget in
     semi-annual reports that major information technology investments are directly
     connected to agencies’ strategic plans and provide a positive return on
     investment, sound acquisition planning, comprehensive risk mitigation and
     management planning, realistic cost and schedule goals, and measurable
     performance benefits. For the DoD FY 2005 budget request, the Assistant
     Secretary of Defense (Networks and Information Integration) / DoD Chief
     Information Officer forwarded 174 Capital Investment Reports to the Office of
     Management and Budget. The Capital Investment Report is the primary means of
     justifying and managing information technology investments.

     DoD Financial Management Regulation. The DoD Financial Management
     Regulation, 7000.14-R, Volume 2B, Chapter 18, “Information Technology
     Resources and National Security Systems,” June 2002, requires all DoD
     Components that have any resource obligations for information technology or
     national security systems to prepare Capital Investment Reports, which are
     mandated by Office of Management and Budget Circular A-11. The regulation
     requires Component Chief Information Officers and Chief Financial Officers to
     jointly certify that the Capital Investment Reports submitted are complete,
     accurate, and consistent with the Clinger-Cohen Act, the Paperwork Reduction
     Act, and other applicable acts and requirements.




                                         3
Capital Investment Reports to Office of Management and
  Budget
    The Information Technology Capital Investment Reports submitted for the
    FY 2005 DoD budget request did not demonstrate that DoD was effectively and
    efficiently managing information technology resources in accordance with the
    Office of Management and Budget Circular A-11, July 2003. Our analysis
    showed that 76 of the 174 (44 percent) of Capital Investment Reports that DoD
    submitted to the Office of Management and Budget contained incomplete
    information or did not provide the information that was required by Circular A-11
    for one or more of the data elements in the Security and Privacy section.
    Incomplete information was submitted in the data elements for security funding,
    certification and accreditation, incident handling and reporting, security plans,
    contractor security, security testing, security training, and the protection of
    systems accessible to the public. In addition, we also reviewed Component
    responses on whether they reviewed their investments during the FY 2003
    Federal Information Security Management Act reporting process.

    Security Funding. Circular A-11 requires Components to describe how security
    is provided and funded and report the total dollars allocated for information
    technology security for all investments in FY 2005. Fifty-three of the
    174 submissions (30 percent) were incomplete. Thirty-four Components reported
    security funding for FY 2004 rather than FY 2005. An additional 12 Components
    reported that security funding for FY 2005 was unavailable. We were unable to
    determine the amount of security funding for seven investments based on the
    information given. Table 1 summarizes the incomplete information on security
    funding that Components submitted.

       Table 1. Incomplete Submissions for Security Funding by Component
                                 Number of Incomplete
           Component                Submissions                      Percent

    Army                                24 of 44                        55
    Navy                                 7 of 36                        19
    Air Force                            2 of 24                         8
    Defense agencies                    20 of 70                        28
      Total                             53 of 174                       30

    Certification and Accreditation. Circular A-11 reporting requirements require
    Components to verify full certification and accreditation for investments, specify
    the methodology used, and provide the date of the last certification and
    accreditation review. Full certification and accreditation refers to investments
    with authority to operate and excludes investments with interim authority to
    operate. All information technology investments must be fully certified and
    accredited before becoming operational. Anything short of full certification and
    accreditation indicates that identified information technology security weaknesses


                                        4
remain. These weaknesses must be corrected before adequate funding for the
investment can be justified. In 61 of the 174 submissions (35 percent), the
Capital Investment Reports did not support full certification and accreditation.
Components included investments with interim authority to operate, investments
where the certification and accreditation was in process, or the status of
certification and accreditation was unclear.

Office of Management and Budget Memorandum 03-19, “Reporting Instructions
for the Federal Information Security Management Act and Updated Guidance on
IT [Information Technology] Security Reporting,” August 6, 2003, requires
Federal agencies to prepare and submit Plan of Action and Milestones documents
for all programs and systems with information technology security weaknesses.
However, only 22 of the 61 investments had a Plan of Action and Milestones
document. Twelve additional Capital Investment Reports did not contain the
certification and accreditation methodology used or the date of the last
certification and accreditation review. One Component reported that the question
on certification and accreditation was not applicable because the investment,
“Common Operating Environment,” was not a system, it is a collection of
software components that are integrated into mission applications and command
and control systems. The Component stated that systems that use the software
components of the “Common Operating Environment” are taken through the
certification and accreditation process by the organization owning the system.
We believe that the question does apply to the Component. DoD Instruction
5200.40, “DoD Information Technology Security Certification and Accreditation
Process,” December 30, 1997 paragraph E3.4.3.3.2, clearly describes the software
design certification task and states that the task may include a detailed analysis of
software specifications and software design documentation. Table 2 summarizes
the 73 Capital Investment Reports, by Component, of submissions that were
incomplete or did not support full certification and accreditation.

    Table 2. Inadequate Certification and Accreditation Submissions by
                                Component

                              Number of Incomplete
       Component                 Submissions                        Percent
Army                                22    of 44                       50
Navy                                20    of 36                       56
Air Force                            8    of 24                       33
Defense agencies                    23     of 70                      33
 Total                              73     of 174                     42

Incident Handling and Reporting. Circular A-11 requires Components to
report on how incident-handling capability has been incorporated into the system
or investment and to include a summary of intrusion detection monitoring and
audit log reviews. Circular A-11 also requires Components to report incidents to
the Department of Homeland Security’s Federal Computer Incident Response
Center. Thirteen of the 174 (7 percent) Capital Investment Reports did not
address all of the required elements, including intrusion detection monitoring and
audit log reviews. In two submissions, the Component reported that the



                                      5
investment was a new start and that the security requirements were being
developed.

Security Plans. Circular A-11 requires Components to report whether the
investments have an updated security plan and provide the date of the plan. A
reference to security plans or other documents is not an acceptable response.
Fourteen of the 174 (8 percent) Capital Investment Reports did not provide the
date of the security plan, did not indicate that an updated security plan was
available, or stated that the requirement was not applicable. Reasons provided for
the security plan not being applicable included:

       •   The contract has not been awarded, but all required security issues
           would be addressed and the re-hosted system would contain all the
           security features that are currently available in the system.

       •   The program did not process any information or data; it provided an
           infrastructure to house computers and radios used in Army command
           posts.

We do not consider those answers responsive to the question on security plans.
Circular A-11 clearly states that all information technology investments must
have up-to-date security plans.

Contractor Security. Circular A-11 requires Components to report whether the
contractor operated the system on site or at a contractor facility and whether the
contract includes specific security requirements required by law and policy.
Circular A-11 also requires Components to describe how contractor security
procedures are monitored, verified, and validated. Ten of the 174 (6 percent)
Capital Investment Reports did not completely address all the elements for this
area. Component responses stated that the investment was not a system, that the
requirement did not apply, or that new start authority was pending. In other
submissions, the responses were too general to be useful. Examples of the
complete answers that were too general were:

       •       “Any contractors undergo background evaluations.”
       •       “By sites security administrator.”
       •       “Yes, security investigation of contractors is required, bound by
                same access rules as Government employees.”

Security Testing. Circular A-11 requires Components to report on whether
management, operational, and technical security controls have been tested for
effectiveness. Circular A-11 also requires the Components to provide the date of
the most recent tests. Eleven of the 174 (6 percent) Capital Investment Reports
did not contain the required information for this area. Six Components failed to
include the date of the most recent tests. Five Components stated that the
investment was not a system and did not provide the requested information.

Security Training. Circular A-11 requires Components to provide information
on user training in the past year. Five of 174 (3 percent) Capital Investment



                                     6
     Reports did not clearly show that the users were appropriately trained during the
     past year or that the requirement was not applicable.

     Protection of Systems with Public Access. Circular A-11 requires Components
     to report on how agencies ensure effective use of security controls and
     authentication tools to protect privacy for systems that promote or permit public
     access. Three of the 174 (2 percent) Capital Investment Reports stated that this
     program is pending new start authority, security requirements were being
     identified within the architecture products, or that the requirement was not
     applicable.

     Federal Information Security Management Act. Circular A-11 requires
     Components to report whether they reviewed investments as part of the
     FY 2003 Federal Information Security Management Act reporting process,
     whether the review indicated any weaknesses, and whether the weaknesses were
     included in the corrective action plan. Our review of the 174 Capital Investment
     Reports showed that 83 (48 percent) investments were included as part of the
     review. Thirteen of the 83 reports indicated weaknesses were found and
     incorporated into an agency corrective action plan. Office of Management and
     Budget Memorandum 03-19, “Reporting Instructions for the Federal Information
     Security Management Act and Updated Guidance on IT [Information
     Technology] Security Reporting,” August 6, 2003, requires Federal agencies to
     prepare and submit Plan of Action and Milestones documents for all programs
     and systems with any information technology security weakness. However, only
     3 of the 13 reports that indicated weaknesses had a Plan of Action and Milestones
     document. In addition, two of the Capital Investment Reports did not answer the
     question.


Effect of Inadequate Capital Investment Reports
     The quality of DoD information reported on security to the Office of Management
     and Budget had limited value because it did not demonstrate, in accordance with
     Office of Management and Budget and DoD guidance, that DoD was effectively
     managing its $28.7 billion information technology investment for FY 2005.
     Although Capital Investment Reports are officially submitted to the Office of
     Management and Budget twice yearly, Components should use them as
     management tools and update the reports as the information becomes available.
     Information reported on Capital Investment Reports helps management ensure
     that spending on capital assets directly supports an agency’s mission and will
     provide a return on investment equal to or better than alternative uses of funding.
     Submission of incomplete reports jeopardizes appropriate funding and diminishes
     the overall usefulness of Capital Investment Reports.


Management Actions Taken on Previous Audits and During
 this Audit
     The Congress, the Government Accountability Office (formerly, the General
     Accounting Office), and the Inspector General of the Department of Defense have
     questioned the quality, accuracy, and completeness of DoD budget submissions.


                                          7
However, the Assistant Secretary of Defense (Networks and Information
Integration) / DoD Chief Information Officer has taken action that should
improve the quality of future Capital Investment Reports submitted to the Office
of Management and Budget.
Congressional Interest. In the past, the House Committee on Armed Services
has challenged the quality of DoD information technology management. The
Committee noted that DoD information technology documents provided to the
Committee describing the various information technology initiatives and
associated budget data were inaccurate, misleading, or incomplete.
Government Accountability Office. The Government Accountability Office
assessed the funding information in the DoD Information Technology Budget
Summary to determine the reliability of the DoD FY 2004 budget submission for
information technology. Audit Report GAO-04-115, “Improvements Needed in
the Reliability of Defense Budget Submissions,” December 19, 2003, found that
the FY 2004 information technology budget submission contained material
inconsistencies, inaccuracies, or omissions that limited its reliability. The report
made eight recommendations to improve the reliability of future budget
submissions and raise the level of management attention on improving reliability
and strengthening the management processes and supporting systems. In
response to the report’s recommendations, the Assistant Secretary of Defense
(Networks and Information Integration) / DoD Chief Information Officer agreed
or partially agreed with the recommendations and described actions that his office
would take to establish the appropriate controls and systems needed to correct
many of the weakness described in the report.
Inspector General of the Department of Defense. The Office of the Inspector
General of the Department of Defense assessed the “Reporting of DoD Capital
Investments for Information Technology,” May 7, 2004 (Report No. D2004-081).
The report determined that DoD Capital Investment Reports submitted to the
Office of Management and Budget and Congress for information technology
assets did not consistently demonstrate that information supporting the budget
justifications was directly connected to the DoD strategic plan and would provide
a positive return on investment, sound acquisition planning, comprehensive risk
mitigation and management planning, realistic cost and schedule goals, and
measurable performance benefits. In response to the report’s recommendations,
the Assistant Secretary of Defense (Networks and Information Integration) / Chief
Information Officer revised the DoD Financial Management Regulation to make
DoD financial officers more accountable for submitted data. The revised
guidance augmented compliance with the Clinger-Cohen Act and Office of
Management Budget Circular A-11 requirements.

Status Meetings. The Director of Resources, Assistant Secretary of Defense
(Networks and Information Integration) / DoD Chief Information Officer held
numerous meetings with officials of the Services and Defense agencies who were
responsible for preparing and submitting the FY 2006 DoD information
technology Capital Investment Reports and other associated budget data in an
effort to clarify the Office of Management and Budget guidance and improve the
quality of Capital Investment Reports submitted.

Submission Process Changes. On July 19, 2004, the Assistant Secretary of
Defense (Networks and Information Integration) / DoD Chief Information Officer


                                     8
    issued policy and guidance for completing and submitting the FY 2006 Capital
    Investment Reports. Starting with the FY 2006 Exhibit 300 submissions, the
    Director of Resources, Office of the Assistant Secretary of Defense (Networks
    and Information Integration) / Chief Information Officer plans to score all
    submissions using an established self-assessment process. The Director will also
    inform DoD Components of required revisions before forwarding them to the
    Office of Management and Budget. When implemented, those actions should
    further improve the quality of Capital Investment Reports submitted to the Office
    of Management and Budget.


Conclusion
    The quality of security information reported to the Office of Management and
    Budget for FY 2005 did not consistently demonstrate that Components were
    effectively managing information technology capital assets. Although reasonable
    explanations existed for some missing and incomplete data, this rationale could
    not be applied systemically for the majority of missing or incomplete information
    responses. Actions taken by the Assistant Secretary of Defense (Networks and
    Information Integration) / DoD Chief Information Officer in response to audit
    reports by the Government Accountability Office and the Office of the Inspector
    General should improve the quality of the Capital Investment Reports submitted
    to the Office of Management and Budget for FY 2006. Therefore, we are not
    making any recommendations.




                                        9
Appendix A. Scope and Methodology
    We examined all 174 Capital Investment Reports that DoD submitted to the
    Office of Management and Budget for the FY 2005 DoD Budget Request. We
    limited our review to evaluating the responses in the data elements of security
    funding, certification and accreditation, incident handling and reporting, security
    plans, contractor security, security testing, security training, and protection of
    systems accessible to the public. We also reviewed Component responses on
    whether investments were reviewed during the FY 2003 Federal Information
    Security Management Act reporting process. We evaluated the reporting process
    and the completeness of information for each report based on report preparation
    guidance from Office of Management and Budget Circular A-11, Part 7,
    “Planning, Budgeting, Acquisition, and Management of Capital Assets,” July
    2003, and the DoD Financial Management Regulation 7000.14-R, Volume 2B,
    Chapter 18, “Information Technology Resources and National Security Systems,”
    June 2002. We also reviewed relevant documents addressing report submissions
    from February 1996 through July 2004.

    We attended meeting with officials who were responsible for preparing and
    submitting DoD information technology Capital Investment Reports and other
    associated budget data within the Services and Defense agencies to gain an
    overall understanding of the information technology budget process.

    This audit was performed from April 2004 through September 2004 in accordance
    with generally accepted government auditing standards. The management control
    program was not an announced audit objective because it was reviewed and
    reported upon in Inspector General Report Number D-2004-081.

    Use of Computer-Processed Data. We did not use computer processed data to
    perform this audit.

    Use of Technical Assistance. We did not use technical assistance to perform this
    audit.

    Government Accountancy Office High-Risk Area. The General Accounting
    Office has identified several high-risk areas in DoD. This report provides
    coverage of DoD Information Technology management.


Prior Coverage
    GAO Report Number GAO-04-115, “Improvements Needed in the Reliability of
    Defense Budget Submissions,” December 19, 2003

    Inspector General Report Number D-2004-081, “Reporting of DoD Capital
    Investments for Information Technology, May 7, 2004




                                        10
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Assistant Secretary of Defense (Networks and Information Integration) / DoD Chief
   Information Officer
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Chief Information Officer, Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Chief Information Officer, Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Chief Information Officer, Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          11
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        12
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Acquisition and Technology Management prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Mary L. Ugone
Kathryn M. Truex
Robert L. Shaffer
George A. Leighton
Robert R. Johnson
Jacqueline N. Pugh
